Before the Transportation and Infrastructure Committee
Subcommittee on Aviation
United States House of Representatives

For Release on Delivery
Expected at
2:00 p.m. EST
                          Actions Needed To
Wednesday
February 13, 2008         Improve Runway Safety
CC-2008-045




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify today on runway safety. Since 1997, our
office has issued 11 audit reports and testified numerous times before Congress on
actions needed for improving runway safety. Our testimony today is based on our
prior and ongoing work in this important area.

Safety is the Federal Aviation Administration’s (FAA) highest priority, and the
United States has experienced one of the safest periods in aviation history. However,
we continue to see incidents such as the recent close calls on the ground in Baltimore,
Chicago, and San Francisco, which serve as reminders that we must work to make our
system even safer. Aviation stakeholders are expressing growing concerns regarding
the rise in severe runway incidents. In fact, the last fatal commercial aircraft accident
in the United States (in 2006) occurred because the pilots of Comair flight 5191
attempted to take off from the wrong runway.

A significant threat to runway safety is runway incursions (any incident involving an
unauthorized aircraft, vehicle, or person on a runway). 1 This critical safety issue
requires continual action and heightened attention. Reducing the risk of runway
incursions has been on the National Transportation Safety Board’s (NTSB) Most
Wanted List of Safety Improvements since the list’s inception in 1990. Because
runway incursions can be caused by controllers, pilots, or ground vehicles,
responsibility for their prevention falls on all users of the National Airspace System—
FAA, airlines, and airport operators.

From 1999 to 2001, runway incursions increased at alarming rates. To its credit, FAA
took decisive action that helped to reduce
these incidents—it established regional              Figure 1. Runway Incursions
runway safety offices, and initiated aggressive           FY 1999 to FY 2007
educational programs for pilots. However,         FY 1999                    329
since 2003, the number of runway incursions                                       405
has begun climbing again, reaching a high of      FY 2001                         407
                                                                              339
370 in fiscal year (FY) 2007—a 12-percent         FY 2003                    323
increase over FY 2006 (see figure 1).                                        326
                                                                        FY 2005                          327
                                                                                                         330
Of the 370 runway incursions that occurred in                          *FY 2007                                370
FY 2007, 209 (57 percent) were caused by
                                                                                   0   100   200   300    400        500
pilots, 105 (28 percent) by controllers, and
                                                                     Source: FAA
56 (15 percent) by ground vehicles.



1
    Effective October 1, 2007, FAA began categorizing runway incursions using the International Civil Aviation
    Organization definition. The new definition of runway incursions includes incidents that were previously defined by
    FAA as “surface incidents” (where a potential conflict did not exist).


                                                                                                                           1
The most serious incidents (Categories A and B) decreased from a high of 69 in
FY 1999 to a low of 24 in FY 2007. However, very serious close calls involving
commercial aircraft continue to occur. For example:

 • On December 2, 2007, at Baltimore Washington International Airport, a collision
   was barely avoided when a controller cleared a Comair aircraft for take-off while
   simultaneously clearing an America West aircraft to land on an intersecting
   runway. The Comair aircraft passed in front of the America West aircraft by
   about 150 feet at the runway intersection.
 • On July 19, 2007, at Chicago O’Hare International Airport, a collision was barely
   avoided when a United Airlines aircraft exited the wrong taxiway and taxied
   directly under an arriving US Airways aircraft. Although the controller instructed
   the US Airways aircraft to go around and then re-attempt the landing, it overflew
   the nose of the United aircraft by about 50 to 70 feet.
 • On May 26, 2007, at San Francisco International Airport, a controller mistakenly
   cleared a Republic regional aircraft to depart while a Skywest regional aircraft was
   landing on an intersecting runway. The Skywest aircraft was unable to stop short
   of the runway intersection, and the Republic aircraft overflew it by about 50 feet.

During the first 3 months of FY 2008, 10 serious runway incursions occurred. If that
rate continues, there could be 40 serious runway incursions before the end of FY
2008, which would be the highest level in 6 years.

Over the last 10 years, our work has showed that a range of actions are needed to
enhance the margin of safety on the Nation’s runways (see exhibit). We have
identified four specific areas where FAA and other aviation users should focus
runway safety efforts.

 • Implementing existing and new FAA systems to alert controllers and pilots to
   potential runway incursions.
 • Making airport-specific infrastructure and procedural changes, such as improved
   runway signage and markings.
 • Reinvigorating FAA’s national program for improving runway safety and
   identifying and correcting root causes of runway incursions.
 • Addressing controller human factors issues, such as fatigue and attention, through
   improved training.




                                                                                     2
Implementing Existing and New FAA Systems To Improve Runway Safety
New technology is considered by many to be a key factor in the mix of solutions for
improving runway safety. However, our work on three major FAA acquisitions for
improving runway safety has shown that there are significant concerns as to what can
be effectively deployed within the next several years. For example, a key technology
for preventing runway accidents—the Airport Surface Detection Equipment-Model-X
(ASDE-X)—may not meet its cost and schedule goals to commission all 35 systems
for $549.8 million by 2011. ASDE-X is a ground surveillance system intended to
alert controllers to potential ground collisions.

As of FY 2007, FAA had expended about $314 million (57 percent) and obligated
about $378 million (69 percent) of the planned funding. However, FAA had only
deployed 11 of 35 systems for operational use. FAA must now deploy the last
24 systems at the more complex airports with less than half of the planned funds. We
reported in October 2 that ASDE-X may not achieve all planned safety benefits. These
include maintaining operational capability during inclement weather (when it is most
needed) and alerting controllers to possible collisions on intersecting runways and
taxiways (“hot spots” for runway incursions).

Another significant technology under development is Runway Status Lights (RWSL).
RWSL technology uses automated, surveillance-driven lights that work as an
independent, direct warning system to alert pilots in departing or crossing aircraft that
the runway is occupied. Lights illuminate red when it is unsafe to cross or depart
from a runway, thus increasing the crew’s situational awareness and decreasing the
potential for runway incursions caused by pilot deviations.

Last month, we reported 3 that RWSL is a viable technology for reducing runway
incursions. At Dallas-Fort Worth International Airport (DFW), the test site for
RWSL, the system met or exceeded all performance expectations. In addition, all
system users we met with agreed that RWSL works as intended and has no known
negative impact on capacity, communication, or safety. However, the technology is
still in the early stages of implementation, and much work remains for FAA to
achieve full deployment. A key issue is that RWSL requires ASDE-X fusion data for
its surveillance capabilities and therefore depends on the successful deployment of
that technology. In addition, RWSL has not been tested on intersecting runways.

One of the most promising technologies on the horizon is the Automatic Dependent
Surveillance-Broadcast (ADS-B)—a satellite-based technology that allows aircraft to
broadcast their position to other aircraft and ground systems. When displayed in the


2
    OIG Report Number AV-2008-004, “FAA Needs To Improve ASDE-X Management Controls To Address Cost Growth,
    Schedule Delays, and Safety Risks,” October 31, 2007. OIG reports and testimonies are available on our website:
    www.oig.dot.gov.
3
    OIG Report Number AV-2008-021, “FAA’s Implementation of Runway Status Lights,” January 14, 2008.


                                                                                                                 3
cockpit, ADS-B information can provide a “second set of eyes” by including the pilot
in the loop to detect and alleviate hazardous surface situations.

In August 2007, FAA took an important step by awarding a contract for the
development and installation of the ground infrastructure for ADS-B. However, as
we testified in October, 4 ADS-B ground infrastructure will not be in place until 2013,
and users will not be required to equip with the needed avionics until 2020. A clear
transition path for moving forward with ADS-B with well-defined costs and benefits
does not yet exist.

Making Airport-Specific Infrastructure and Procedural Changes
The uncertain timeline and emerging risks of FAA’s runway safety technologies
underscore the need to explore other near-term solutions to improve runway safety.
We found that there are several relatively low-cost, simple, airport-specific changes
that can help reduce the risk of runway incursions. These include airport
infrastructure changes as well as procedural changes to daily airport operations.

In May 2007, we reported 5 on runway safety efforts at four airports that had
experienced a surge in runway incursions in 2005 and 2006—Boston, Chicago,
Philadelphia, and Los Angeles. We found that airport operators at all four locations
responded to the rise in runway incursions by improving airport lighting, adding
better signage, and improving runway and taxiway markings. This included
upgrading surface-painted, hold-short surface markings in advance of FAA’s
mandatory date of June 2008.

However, at all four locations, the actions were taken only after an increase in the
number and severity of incidents at those airports. For example, at Boston Logan
International Airport, significant corrective actions did not occur until after a
Category A runway incursion happened on June 9, 2005, when 2 aircraft came within
171 feet of a collision. That marked the ninth runway incursion in FY 2005—a
significant increase over the previous year when only one runway incursion occurred
during the entire year.

Some airports also added unique signage to prevent runway incursions. For example,
at Chicago O’Hare, the airport operator added above-ground signage near the general
aviation ramp instructing general aviation aircraft to hold and contact the ground
controller before continuing. This will help prevent general aviation pilots from
inadvertently taxiing onto an active runway.

We also found that airport operators and FAA managers had made the following
procedural changes to daily operations:
4
    OIG Testimony Number CC-2007-100, “Challenges Facing the Implementation of FAA’s Automatic Dependent
    Surveillance-Broadcast Program,” October 17, 2007.
5
    OIG Report Number AV-2007-050, “Progress Has Been Made in Reducing Runway Incursions, but Recent Incidents
    Underscore the Need for Further Proactive Efforts,” May 24, 2007.


                                                                                                            4
 • Air Traffic managers adopted tools for tracking controller performance and
   increased the minimum time for management to work in the operational area.
 • Airport operators tightly controlled the testing of drivers in the airfield driver
   certification process and imposed punitive action for non-compliance of driver
   rules.
 • Airport operators and the FAA Runway Safety Office created maps or brochures
   to highlight potentially hazardous intersections (known as hot spots) on the airport
   movement area.

Results through FY 2007 at Boston and Philadelphia show a significant decrease in
runway incursions (over half at both locations). However, results are not as clear at
Los Angeles International Airport (which is still completing airfield construction) and
Chicago O’Hare (which is still struggling with extremely complex runway layouts).
At Los Angeles, the number of runway incursions remained steady but increased at
Chicago.

While the implementation of these actions varied among the airports, they all had the
potential to reduce runway incursions system-wide. However, other than informal
networking, there were no formal means for the various users to share actions that had
reduced or prevented runway incursions at their locations.

Our recommendations included developing an automated means, such as establishing
an intranet site through the Regional Runway Safety Offices, to share best practices
for reducing runway incursions with all users of the National Airspace System. In
response, FAA implemented a best practices website for runway safety in December
2007.

In addition, in August 2007, FAA convened a task force of pilots, airport managers,
and controllers to address runway safety issues. The group agreed on a short-term
plan to improve runway safety, which focuses on (1) conducting safety reviews at
airports based on runway incursion and wrong runway departure data, (2) deploying
improved airport signage and markings at the 75 busiest, medium- to large-sized
airports (ahead of the June 2008 mandated deadline), and (3) reviewing cockpit and
air traffic clearance procedures.

In January 2008, FAA reported that the aviation industry has initiated and completed
significant short-term actions to improve safety at U.S. airports. For example, safety
reviews of the top 20 high-risk airports were completed, resulting in over 100 short-
term initiatives and numerous mid- and long-term initiatives. Also, 71 of the same
75 busiest airports completed enhancements to surface markings, and airlines
committed to providing pilots with simulator training or other realistic training for
taxiing aircraft from the terminal to the runway.



                                                                                     5
Reinvigorating FAA’s National Program for Improving Runway Safety
From 1998 to 2001, we reported that runway incursions were increasing at alarming
rates. To its credit, FAA took decisive action, and the total number of runway
incursions decreased from a high of 407 in FY 2001 to a low of 323 in FY 2003.
During our review at the Boston, Chicago, Los Angeles, and Philadelphia airports,
however, we found that many important national initiatives for promoting runway
safety (undertaken by FAA as early as 2000) had waned as the number of incidents
declined and FAA met its overall goals for reducing runway incursions.

For example, FAA established the Runway Safety Office in 2001 to provide central
oversight and accountability for implementing runway safety initiatives throughout
the Agency. However, at the time of our review, that office had not had a permanent
Director for almost 3 years. In addition, the office was reorganized and realigned
twice since FAA established the Air Traffic Organization in February 2004, and its
staff was reduced by half, including the elimination of two Headquarters Division
offices within the Office of Runway Safety.

We also found that FAA no longer prepares its National Plan for Runway Safety,
which defined the Agency’s strategy and prioritized efforts to reduce runway
incursions. The last time FAA prepared this plan was in 2002.

FAA has begun addressing many of our concerns. For example, in August 2007,
FAA hired a permanent director for its Runway Safety Office and plans to reinstate its
National Plan for Runway Safety. Although this is a good start, sustained
commitment along with adequate resources and executive level attention will be key
to achieving results.

We also recommended that FAA work with the pilot and airline communities to
establish a process for sharing the redacted information on runway incursions and
surface incidents in the Aviation Safety Action Program (ASAP). We believe this
could help to identify trends, root causes, and possible local solutions. FAA agreed
with our recommendation and tasked the MITRE Center for Advanced Aviation
Systems Development to develop archives of ASAP data with airlines. FAA plans to
implement the analytical tools and methodologies required for detailed analyses by
October of this year.

Addressing Controller Human Factors Issues Through Improved Training
Addressing human factors issues, such as fatigue and situational awareness, is
important to improving runway safety. In its investigation of Comair flight 5191, the
NTSB expressed concerns that the lone controller on duty at the time of the accident
had about 2 hours of sleep before his shift. As a result of its investigation at
Lexington, the NTSB added controller fatigue to its “Most Wanted List” in 2007.




                                                                                    6
As we testified last week before this Subcommittee, 6 controller staffing and training
will be key watch items over the next 10 years as FAA begins executing its plans to
hire and train 15,000 new controllers through 2016. FAA is facing a fundamental
transformation in the composition of its controller workforce. New controllers now
represent 23 percent of the workforce (up from 15 percent in 2004). However, that
percentage can vary extensively by location—from as little as 2 percent (e.g., Boston
terminal radar approach control facility, or TRACON) to as much as 50 percent (e.g.,
Las Vegas TRACON).

Training new controllers on human factor issues (such as addressing fatigue and
increasing attention) as well as technical aspects of air traffic control (such as
airspace, phraseology, and procedures) will become increasingly important as FAA
begins to address the large influx of new controllers.

We also reported in May that FAA needed to focus on controller human factors issues
and training to improve individual, team, and facility performance. In its last National
Plan for Runway Safety, FAA cited human factors and lack of controller teamwork as
significant contributing factors of runway incursions caused by controller operational
errors. However, we found that FAA had made little progress in addressing human
factors training to help reduce the risk of runway incursions caused by controllers.

For example, the National Air Traffic Professionalism Program (NATPRO) is a
human factors initiative that we reviewed in 2003. 7 NATPRO training is designed to
sharpen and maintain controllers’ mental skills most closely associated with visual
attention and scanning. Participants thus gain personal insight into how performance
can be influenced (e.g., by distraction, fatigue, and boredom) and how those factors
increase the opportunity for operational errors.

The program was tested in FY 2003, and FAA provided this training at its en route
centers and will begin using it at its TRACON facilities in FY 2008. However, at the
time of our review, it had not been implemented at towers where visual attention and
scanning are key factors in preventing runway incursions. Since we issued our
report, FAA has provided NATPRO cadre training to representatives from
42 facilities so they can use NATPRO training at their facilities. Tower facilities are
required to start NATPRO training in FY 2009.

To its credit, FAA has successfully implemented an important training initiative—
increasing the use of training simulators at towers. Tower simulators can improve
overall facility performance by reducing runway incursions through enhanced initial
and proficiency training. They provide controllers with a virtual replica of the tower
environment, which can be used to train controllers using real-life scenarios such as
6
    OIG Testimony Number CC-2008-043, “FAA’s Fiscal Year 2009 Budget Request: Key Issues Facing the Agency,”
    February 7, 2008.
7
    OIG Report Number AV-2003-040, “Report on Operational Errors and Runway Incursions,” April 3, 2003.


                                                                                                          7
day-versus-night operations, varying         weather    conditions,   different   runway
configurations, or emergency situations.

Simulators can also be used to model changes in airport configurations and
procedures. For example, Boston Logan used a tower simulator to help establish
necessary safety procedures for a newly constructed runway. Likewise, the National
Aeronautics and Space Administration used a tower simulator to study alternatives for
improving runway safety at Los Angeles and evaluate the effectiveness of adding a
center-field taxiway between its parallel runways. FAA recently installed tower
simulators at four towers—Chicago O’Hare, Miami, Ontario, and Phoenix. Results
thus far indicate that simulators are a valuable training tool.

FAA plans to install 12 additional simulators this year (6 at large airports and 6 at the
FAA Academy) and 12 next year (at other airports). FAA needs to ensure that this
initiative remains on track to capitalize on the significant success this training has
demonstrated.

We are reviewing several other issues concerning controller human factors. At the
request of Chairman Costello, we are reviewing the rate and root causes of controller
training failures (developmental and transferring controllers who fail training either at
the FAA Academy or at their assigned facility).

At the request of Senator Durbin of Illinois, we are reviewing factors that could affect
controller fatigue. We are focusing our current efforts at Chicago O’Hare Tower,
Chicago TRACON, and Chicago Center but may review other locations and FAA’s
national efforts based on the results of our work at Chicago.

I would now like to discuss these four areas in greater detail.




                                                                                       8
IMPLEMENTING EXISTING AND NEW FAA SYSTEMS TO
IMPROVE RUNWAY SAFETY
New technology is considered by many to be a key factor in the mix of solutions for
improving runway safety. However, our work on three major FAA acquisitions for
improving runway safety has shown that there are significant concerns as to what can
be effectively deployed within the next several years. We have completed or are
reviewing three important new technologies on the horizon—ASDE-X (a ground
surveillance system that warns controllers of possible runway conflicts), RWSL (a
“stop-light” technology that warns pilots when a runway is occupied by another
aircraft), and ADS-B (an advanced technology that periodically broadcasts the
vertical and horizontal position of an aircraft). ASDE-X is the closest to near-term
deployment, while ADS-B is planned for the 2020 timeframe.

ASDE-X: ASDE-X is an important safety initiative to reduce the risks of accidents
on runways. FAA designed ASDE-X in response to the NTSB recommendation to
require ground movement safety systems at airports to provide direct warnings to
flight crews. However, in November 2006, the NTSB reported that ASDE-X is an
unacceptable response to its longstanding (6 years) safety recommendation because it
does not provide direct warnings of potential ground collisions to flight crews.

In October 2007, we reported that the ASDE-X program may not meet its cost and
schedule goals to commission all 35 ASDE-X systems for $549.8 million by 2011 or
achieve all planned safety benefits. As of FY 2007, FAA had expended about
$314 million (57 percent) and obligated about $378 million (69 percent) of the
planned funding. However, FAA had only deployed 11 of 35 systems for operational
use. FAA must now deploy the 24 remaining systems at the more complex airports
with less than half of the planned funds.

In July 2007, FAA commissioned its ninth ASDE-X system for operational use at
Louisville International Airport after addressing several longstanding technical
problems. The Louisville system was the first to be deployed with the capability to
alert controllers to potential collisions on intersecting runways and converging
taxiways. However, under certain circumstances, when aircraft are operating on
intersecting runways, the system still does not provide timely alerts to controllers.
Moreover, FAA did not test the converging taxiway capability before operations
began, and the system is susceptible to dropping targets during heavy precipitation.

FAA also faces challenges in meeting the unique needs of airports scheduled to
receive ASDE-X. For example, in August 2007, FAA accelerated ASDE-X
deployment at Chicago O’Hare. However, in January 2008, air traffic controllers
expressed concern about the system’s ability to accurately detect aircraft and vehicles
during snow storms. FAA must focus on resolving operational performance issues
before implementing key ASDE-X safety capabilities.


                                                                                     9
FAA concurred with our recommendations to help the Agency achieve ASDE-X
program goals and improve program management. These include: (1) improving
ASDE-X management controls to reduce the risk of further cost growth and schedule
delays; (2) resolving operational performance issues with key ASDE-X safety
capabilities to reduce the risk of ground collisions on intersecting runways and
taxiways, including during inclement weather; and (3) working with airlines and
airports to provide safety enhancements that were excluded from the program re-
baseline but are vital to reducing the risk of ground collisions caused by pilot and
vehicle operator errors. We intend to follow up on these important issues next year.

Runway Status Lights: Another promising technology on the horizon is RWSL.
RWSL technology uses automated, surveillance-driven lights that work as an
independent, direct warning system to alert pilots in departing or crossing aircraft that
the runway is occupied. The lights are installed at runway/taxiway intersections and
at departure points along the runways. Lights illuminate red when it is unsafe to cross
or depart from a runway, thus increasing the crew’s situational awareness and
decreasing the potential for a runway incursion.

We found that RWSL is a viable technology for preventing runway incursions. While
FAA has made progress in developing RWSL, this technology is still in the early
stages of implementation; much work remains for FAA to achieve full deployment.
Essential attributes of RWSL include the following:

 • Timely warnings of potential conflicts—RWSL promptly and clearly indicates to
   pilots and vehicle operators when it is unsafe for aircraft to enter or cross a
   runway or to commence take-off.
 • Automated information—RWSL provides this information at all times without
   human input.
 • No interference with Air Traffic operations—RWSL acts as an independent safety
   enhancement. It does not increase controller workload and does not interfere with
   the normal flow of airport traffic or rhythm of controller movement of traffic.
 • Lights indicate status only—RWSL indicates runway status and does not convey
   an Air Traffic Control clearance. Clearance is still provided by Air Traffic
   Control.
 • Illuminated lights warn pilots of potential runway conflicts and prompt them to
   notify the tower before proceeding if a contradicting clearance has been issued;
   therefore, the system may also help to identify potential controller operational
   errors.

During operational evaluations and subsequent modifications at DFW for runway
entrance lights and take-off hold lights, RWSL met or exceeded all performance
criteria specified in the RWSL Research Management Plan. In addition, all system


                                                                                      10
users we met with at DFW agreed that RWSL works as intended and has no known
negative impact on capacity, communication, or safety.

Further, runway incursions on the test runway at DFW (runway 18L/36R) have
decreased by 70 percent: during the 29 months before testing (October 1, 2002,
through February 28, 2005), 10 runway incursions occurred at DFW; during the
29 months after testing (March 1, 2005, through July 31, 2007), only 3 occurred.

While RWSL at DFW has performed extremely well thus far, we identified several
challenges that FAA must address to ensure the effective and timely implementation
of this important safety technology. For example,

 • RWSL depends on ASDE-X, and the interface between the two systems will need
   to be modified to address the differences between the ASDE-X prototype system
   used at DFW for RWSL and the version of ASDE-X being deployed nationally at
   other airports.
 • Some of the airports where FAA plans to deploy RWSL are undergoing or will
   undergo airfield improvements. It will be important for the RWSL program office
   to work with FAA’s Airports line of business to identify those airports and
   coordinate the deployment of RWSL in-ground infrastructure concurrently with
   airfield construction. This will help to save investment dollars by avoiding
   duplicative construction and ensure timely implementation of infrastructure
   improvements and RWSL.
 • Part of the early success of RWSL testing has been immediate input and corrective
   actions by the research and development staff (including the federally funded
   research contractor that created the system) when problems were identified. A
   key factor for maintaining project momentum will be ensuring that similar “hands-
   on” knowledge is retained during the transition from research and development to
   the acquisition phases of the RWSL life cycle.

FAA’s Joint Resource Council (JRC) approved the RWSL initial investment decision
in July 2007. The initial investment decision document recommended that FAA
finalize its acquisition strategy and return it to the JRC for the final investment
decision (which sets the stage for system-wide implementation) no later than
November 2007. However, the target date for the final investment decision is
currently set for July 2008. In our opinion, setting the target date for the final
investment decision 1 year after the initial investment decision to complete the
acquisition package was approved did not meet the JRC’s direction.

Meeting these challenges in the early phases of RWSL implementation will be critical
for keeping it on track. Our January 2008 recommendations focused on the actions
FAA needs to take now to ensure that the system remains a viable tool for reducing
runway incursions and that future deployment remains on schedule. FAA agreed with


                                                                                 11
our recommendations and has established appropriate milestones for beginning the
acquisition of the system. The first step is the Request for Offer release, which FAA
expects to issue later this month.

As shown below, RWSL consists of both runway entrance lights and take-off hold
lights. Runway entrance lights illuminate red when a runway is unsafe to enter or
cross (see figure 2). Runway entrance lights are visible to aircraft from taxiways
holding short of runway intersections.
    Figure 2. Diagram of Entrance Lights            Figure 3. OIG Photo of Entrance
                                                             Lights at DFW



                                                   Runway entrance        Runway 18L
                                                       lights




Figure 3 shows the view pilots see when runway 18L is unsafe to enter due to an
aircraft taking off. Take-off hold lights illuminate red to indicate an unsafe condition
when an aircraft is in position for take-off and another aircraft or vehicle is either on
or about to enter the runway in front of it (see figure 4).

                    Figure 4. Diagram of Take-Off Hold Lights




FAA is also developing a third type of runway status lights, runway intersection
lights. These lights are designed to warn pilots on a runway when another aircraft is
departing from or landing on an intersecting runway. FAA plans to begin testing
these lights at Chicago O’Hare later this year.



                                                                                       12
ADS-B and In-Cockpit Moving Map Displays: As we reported in 2001, 8
technologies that help pilots know their and others’ locations on the runway (e.g., in-
cockpit moving map displays and ADS-B) must be expedited to avoid close calls that
continue to pose a serious safety risk to airline crews and passengers. In March 2007,
FAA announced plans to expedite the certification and use of in-cockpit moving map
displays to show pilots their actual position on the airport surface.

When displayed in the cockpit, ADS-B information can provide a “second set of
eyes” by including the pilot in the loop to detect and alleviate hazardous surface
situations. FAA plans to mandate “ADS-B Out,” which allows aircraft to broadcast
their position to ground systems, but does not intend to mandate the use of
“ADS-B In” or cockpit displays. FAA hopes the industry will voluntarily equip with
the technology.

Over the next several years, FAA plans to work with the United Parcel Service at
Louisville to develop air-to-air and surface applications for ADS-B In and cockpit
displays. FAA plans to integrate the use of ADS-B, cockpit displays, and ASDE-X.
This presents FAA with a unique opportunity to determine whether these three
technologies can be combined to simultaneously alert controllers and pilots to
potential ground collisions. FAA should then determine the cost and timeline for
implementing this capability at all ASDE-X airports.

In August 2007, FAA took an important step by awarding a contract for the
development and installation of the ground infrastructure for ADS-B. However, as
we testified in October, ADS-B ground infrastructure will not be in place until 2013,
and users will not be required to equip with the needed avionics until 2020. A clear
transition path for moving forward with ADS-B with well-defined costs and benefits
does not yet exist.

FAA must address several challenges to realize the benefits of ADS-B. These include:
(1) gaining stakeholder acceptance and aircraft equipage, (2) addressing broadcast
frequency congestion concerns, (3) integrating with existing systems, (4)
implementing procedures for separating aircraft, and (5) assessing potential security
vulnerabilities in managing air traffic.




8
    OIG Report Number AV-2001-066, “Despite Significant Management Focus, Further Actions Are Needed To Reduce
    Runways Incursions,” June 26, 2001.


                                                                                                           13
MAKING AIRPORT-SPECIFIC INFRASTRUCTURE AND
PROCEDURAL CHANGES
The uncertain timeline and emerging risks of FAA’s runway safety technologies
underscore the need to explore other near-term solutions to improve runway safety.
We found that there are several relatively low-cost, simple airport-specific changes
that can help reduce the risk of runway incursions. These include airport
infrastructure changes, such as better signage, lighting, and markings as well as
procedural changes to daily airport operations. Another important infrastructure
component is the installation of runway safety areas, which provide a safety net for
aircraft undershooting, overrunning, or veering off a runway during a landing or an
aborted take-off.

In May, we reported on actions taken at Boston, Chicago, Philadelphia, and
Los Angeles airports in response to increased runway incursions. However, at all four
airports, the actions were taken only after an increase in the number and severity of
incidents. For example, at Boston Logan, significant actions did not occur until after
a Category A runway incursion happened on June 9, 2005, when 2 aircraft came
within 171 feet of a collision. That marked the ninth runway incursion in FY 2005—a
significant increase over the previous year when only one runway incursion occurred
during the entire year.

At all four locations, we found that airport operators had improved airport lighting
(see figure 6 on page 15), signage, and markings in response to runway incursions.
For instance, the airports upgraded surface-painted, hold-short surface markings in
advance of FAA’s mandatory implementation date of June 2008.

The airports also added unique signage to prevent runway incursions. For example, at
Chicago O’Hare, the airport operator added above-ground signage near the general
aviation ramp instructing general aviation aircraft to hold and contact the ground
controller before continuing. This will help to prevent general aviation pilots from
inadvertently taxiing onto an active runway (see figure 5).




                                                                                   14
 Figure 5. Picture of Ground Signage at Chicago O’Hare Instructing General
   Aviation Pilots To Hold and Contact Ground Control Before Proceeding




    Figure 6. Picture of an Elevated Runway Guard Light at Boston Logan




At Los Angeles, airport operators are making major infrastructure changes to reduce
runway incursions. The airport moved one runway 55 feet farther away from a
parallel runway so that a center-field taxiway could be added. This action has the
most potential for preventing runway incursions because most pilot deviations
occurred when aircraft were exiting one runway but, due to the close proximity of the
parallel runway, were unable to hold short of the second runway as instructed. The
center-field taxiway is expected to be completed later this year.

We also found that, at all four locations, airport operators and FAA managers had
made procedural changes to daily operations. Examples of effective actions include
the following:




                                                                                  15
 • Air Traffic managers adopted tools for tracking controller performance. At
   Boston Logan, managers implemented the use of an automated software program
   for performance oversight, while the other facilities adopted the use of other tools
   or forms to better track employee performance until automated software is
   available.

 • Air Traffic managers also increased the minimum required time for management
   to work in the operational area. At Chicago O’Hare, managers implemented a
   requirement for operational managers to spend at least 80 percent of their time in
   the operational area.
 • Airport operators tightly controlled the testing of drivers in the airfield driver
   certification process. Each airport operator imposed punitive action for non-
   compliance of driver rules, some resulting in revocation of driver privileges or
   enforcement of fines.
 • Airport operators and the FAA Runway Safety Office created maps or brochures
   to highlight potentially hazardous intersections (known as hot spots) on the airport
   movement area. At Philadelphia International Airport, the airport operator created
   user-specific hot-spot maps, which identified different hot spots for vehicle drivers
   and for pilots.
 • At Boston Logan, Regional Runway Safety Program Managers developed a high-
   alert intersection brochure that identified hot spots and distributed it to airport
   users.

While the implementation of these actions varied among the airports, they all had the
potential to reduce runway incursions system-wide. However, other than informal
networking, there were no formal means for the various users to share actions that had
effectively reduced or prevented runway incursions at their locations. Regional
Runway Safety Managers in particular expressed frustration at their inability to share
best practices through a formal channel, such as an intranet posting site specifically
dedicated to runway safety issues.

We recommended that FAA develop an automated means, such as establishing an
intranet site through the Regional Runway Safety Offices, to share best practices for
reducing runway incursions with all users of the National Airspace System. In
response, FAA implemented a best practices website for runway safety in December
2007.

In addition, in August 2007, FAA convened a task force of pilots, airport managers,
and controllers to address runway safety issues. The group agreed on a short-term
plan to improve runway safety, which focuses on (1) conducting safety reviews at
airports based on runway incursion and wrong runway departure data, (2) deploying
improved airport signage and markings at the 75 busiest, medium- to large-sized


                                                                                     16
airports (ahead of the June 2008 mandated deadline), and (3) reviewing cockpit and
air traffic clearance procedures.

In January 2008, FAA reported that the aviation industry has initiated and completed
significant short-term actions to improve safety at U.S. airports. For example, safety
reviews of the top 20 high-risk airports were completed, resulting in over 100 short-
term initiatives and numerous mid- and long-term initiatives. Also, 71 of the same
75 busiest airports completed enhancements to surface markings, and airlines
committed to providing pilots with simulator training or other realistic training for
taxiing aircraft from the terminal to the runway.

Another important infrastructure component is the installation of runway safety areas.
Runway safety areas are cleared and graded terrain surrounding a runway that provide
a safety net for aircraft undershooting, overrunning, or veering off a runway during a
landing or an aborted take-off. The importance of having unobstructed runway safety
areas was demonstrated on December 8, 2005, when a Southwest Airlines plane
skidded off the end of a runway, killing 1 person and injuring 12. The accident
occurred at Chicago Midway Airport, which at that time did not have a standard
runway safety area. 9

The operators of commercial service airports must upgrade their runway safety areas
to FAA design standards by 2015—a requirement of the DOT Appropriations Act of
FY 2006. In November 2007, we initiated an audit to review FAA’s Runway Safety
Area Improvement Program and plan to issue a report later this year.

REINVIGORATING FAA’S NATIONAL PROGRAM FOR
IMPROVING RUNWAY SAFETY
The serious risks associated with runway incursions underscore the need for
maintaining a proactive approach for preventing these incidents. This will depend on
strong program oversight that identifies systemic issues and resolves them in a timely
manner.

We identified opportunities that could help further reduce runway incursions system-
wide. Specifically, we found that (1) renewed focus at the national level was needed
to ensure that runway safety remains a priority for all FAA lines of business and (2)
better information sharing was needed to identify root causes of pilot deviations.

Renewed Focus at the National Level Is Needed To Ensure That Runway
Safety Remains a Priority for all FAA Lines of Business
During our review of the Chicago, Philadelphia, Boston, and Los Angeles airports,
however, we found that several national initiatives for promoting runway safety
(undertaken by FAA as early as 2000) had waned as the number of incidents declined
9
    In November 2007, the airport improved its runway safety area by installing an arresting system.


                                                                                                       17
and FAA met its overall goals for reducing runway incursions. For example, FAA’s
Runway Safety Office was established in 2001 to provide central oversight and
accountability for implementing runway safety initiatives throughout the Agency.

However, until August 2007, that office had not had a permanent Director for almost
3 years. In addition, the office was reorganized and realigned twice since the FAA
established the Air Traffic Organization in February 2004. Further, the office staff
was reduced by half (from 18 to 9 staff members), including the elimination of two
Headquarters Division offices within the Office of Runway Safety.

Another example is FAA’s National Plan for Runway Safety. This plan defined
FAA’s strategy and prioritized its efforts to reduce runway incursions by including
specific activities, milestones, and the organization responsible for those activities.
FAA believed that this plan, along with quarterly status briefings to the Administrator,
would improve program accountability by ensuring that initiatives were completed in
a timely manner. However, we found that this plan was no longer prepared, and the
last time FAA prepared one was in 2002.

FAA officials we spoke with told us that the FAA Flight Plan took the place of the
National Plan for Runway Safety and that each line of business is responsible for
including runway incursion initiatives in its own annual business plan. The individual
business plans, however, do not have the same national focus and emphasis that the
National Plan for Runway Safety provided. In addition, fragmented authority can
lead to reduced focus and accountability.

For instance, FAA does not require each line of business to include goals in its
business plan that are specific to its oversight responsibility, and this may diminish
accountability for achieving results within each line of business. For example, while
FAA met its FY 2006 overall goal of no more than 34 serious runway incursions, pilot
deviations (the responsibility of the Aviation Safety line of business) experienced a
100-percent increase—rising from 9 in FY 2005 to 18 in FY 2006. To improve
accountability, we recommended that FAA require each line of business to establish
quantitative runway incursion goals specific to its oversight responsibility.

FAA agreed with our recommendation and plans to develop a comprehensive strategy
to address runway safety that each line of business will be accountable to, similar to
the 2002-2004 National Plan for Runway Safety. FAA plans to complete a draft of
the plan by the end of this fiscal year.




                                                                                     18
Better Information Sharing Is Needed To Identify Root Causes of Pilot
Deviations
Pilot deviations have historically been the cause of 50 percent or more of all runway
incursions. In FY 2006, both the total number of and the most serious runway
incursions caused by pilots increased to their highest levels since FY 2002 (see figure
7). In FY 2007, the total number of pilot deviations continued to rise. Given these
statistics, it is important that FAA have mechanisms in place to share information
about pilot deviations that could be used to identify trends and potential causal
factors.
                          Figure 7. History of Pilot Deviations
                                   FY 2001 to FY 2007
         250
                 233
                                                                             209
                           191                                     190
         200
                                      174      173        169
         150

         100     32
                 Cat       20         14        14                 18
                                                           9                 11
                 A/B       Cat      Cat A/B     Cat                Cat
          50                                              Cat                Cat
                           A/B                  A/B                A/B
                                                          A/B                A/B
           0
               FY 2001    FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007

       Source: FAA data

FAA has two programs that could help to identify root causes of pilot deviations—the
Runway Incursion Information and Evaluation Program (RIIEP) and the Aviation
Safety Action Program. Both programs provide a mechanism to obtain information
that may not otherwise be reported. However, we found that the data in these
programs were either ineffectively utilized or inaccessible to users. In our opinion,
analyzing this data is key to identifying potential causal factors and solutions for
reducing runway incursions caused by pilots at both the national and local levels. In
addition, the success of the RIIEP and ASAP programs depends on strong national
oversight.

RIIEP: RIIEP was designed to provide data on the causes of runway incursions and
surface incidents caused by pilot deviations. The RIIEP questionnaire gathers human
factors information from pilots involved in a runway incursion about activity in the
cockpit as well as pilots’ comprehension of air traffic instructions and physiological
conditions. For example, a RIIEP report filed for a recent Los Angeles pilot deviation
provided valuable insight that was not included in the investigation report, such as
crew communication information, the impact of fatigue, and a suggestion on how to
prevent the reoccurrence of a similar pilot deviation.




                                                                                      19
The program, which is voluntary, was originally tested in FY 2000 for a 1-year
period. Based on the results of that test, FAA believed that the program could provide
valuable safety information that would help determine root causes and develop
effective corrective actions to reduce runway incursions caused by pilot deviations.
As a result, FAA renewed the program for a 2-year period in July 2004. However, we
found that the program was not being utilized effectively.

For example, only 19 percent of all runway incursions and surface incidents that
occurred during that 2-year period had a completed program questionnaire. In
addition, FAA was unable to provide us with evidence that any data analyses were
performed on the information that was collected.

FAA has subsequently initiated efforts to revitalize RIIEP. In October 2006, FAA
renewed RIIEP for another 2 years. FAA also established goals to increase pilot
participation by 10 percent annually over the next 2 years. In addition, FAA plans to
provide all regional and field inspectors with training on the program to increase its
utilization. The program manager for RIIEP stated that, given these improvements,
he believes the program will be more successful at identifying root causes and
solutions to reduce runway incursions.

Renewing RIIEP is, in our opinion, an important component of reducing runway
incursions. In order to meet its participation goals, we recommended that FAA
establish initiatives to promote increased voluntary pilot participation in RIIEP so that
the necessary data can be accumulated and appropriately analyzed to identify and
mitigate runway incursion causal factors.

FAA agreed with our recommendation and in response has (1) tasked a team to
enhance FAA inspectors’ and pilots’ education regarding the RIIEP program and (2)
established appropriate management controls to ensure that collected data are
analyzed. FAA established a goal of at least a 10-percent increase in program
participation by September 30 of each fiscal year (over a baseline of 19 percent
participation as of September 30, 2006). FAA successfully met this goal in FY 2007,
with 38 percent program participation. The key now will be for FAA to thoroughly
analyze the data and use the results to reduce pilot deviations.

ASAP: ASAP is a program that allows air carrier employees to report potential safety
issues without fear of enforcement action from FAA. An intended benefit of ASAP is
that the information obtained may not otherwise be reported. We are reviewing
ASAP as part of a separate audit to determine the appropriateness of including certain
incidents or accidents that by their nature would be known and reported to FAA, such
as runway incursions.

As part of our review of runway safety efforts at Boston, Chicago, Philadelphia, and
Los Angeles airports, however, we found that existing ASAP data could help to


                                                                                      20
identify root causes and corresponding solutions related to commercial pilot
deviations. However, detailed information related to many of these incidents is kept
by the individual air carriers participating in the program and is protected from
disclosure. This is the case even if the runway incursion is serious.

For example, on July 18, 2006, a serious pilot deviation occurred at Chicago O’Hare
when an American Eagle regional jet turned onto the wrong taxiway and conflicted
with an arriving US Airways Boeing 737 on a short final approach to an intersecting
runway. The 2 aircraft came within 100 feet of a collision. The final report on the
incident, however, provides no details about why the American Eagle pilot was on the
incorrect taxiway. It simply states that the investigation is being handled under ASAP
and that the airline failed to respond to a request for additional information
concerning the pilot deviation.

Obtaining the detailed information in ASAP reports could identify possible common
causes that may exist among different air carries, which an individual air carrier may
not see as a trend.

For example, at Boston Logan, where pilot deviations represent the largest percentage
of runway incursions, stakeholders recognized and acted upon the need for pilot
deviation information to be shared. As a result, a team of pilot and air traffic
representatives meet regularly to review tapes of local pilot deviations and develop
solutions specific to Boston Logan. However, the amount of information available to
the team is limited since any pilot deviation reported under ASAP is restricted and
kept by the individual participating air carriers.

Key stakeholder personnel we interviewed (Regional Runway Safety Program
Managers, Flight Standards personnel, and pilot representatives) agreed that ASAP
information could help in identifying effective mechanisms to reduce runway
incursions. Since our audit of ASAP is not complete, we recommended that FAA
work with the pilot and airline communities to develop a process whereby Regional
Runway Safety Program Managers can request site-specific, redacted ASAP
information on runway incursions and surface incidents to identify trends and root
causes of runway incursions.

FAA agreed with our recommendation and tasked the MITRE Center for Advanced
Aviation Systems Development to develop archives of ASAP data with airlines. FAA
plans to implement the analytical tools and methodologies required for detailed
analyses by October 2008.




                                                                                   21
ADDRESSING CONTROLLER HUMAN FACTORS ISSUES
THROUGH IMPROVED TRAINING
Addressing human factors issues, such as fatigue and situational awareness, is
important to improving runway safety. In its investigation of Comair flight 5191, the
NTSB expressed concerns that the lone controller on duty at the time of the accident
had about 2 hours of sleep before his shift.

As we testified last week before this Subcommittee, controller training and staffing
will be a key watch items over the next 10 years as FAA begins executing its plans to
hire and train 15,000 new controllers through 2016. FAA is facing a fundamental
transformation in the composition of its controller workforce. The overall percentage
of controllers in training has grown substantially over the past 3 years. New
controllers now represent 23 percent of the workforce (up from 15 percent in 2004).
However, that percentage can vary extensively by location—from as little as 2 percent
(e.g., Boston TRACON) to as much as 50 percent (e.g., Las Vegas TRACON).

Training new controllers on human factor issues (such as addressing fatigue and
increasing attention) as well as technical aspects of air traffic control (such as
airspace, phraseology, and procedures) will become increasingly important as FAA
begins to address the large influx of new controllers.

In May 2007, we reported that FAA needed to focus controller human factors issues
and training to improve individual, team, and facility performance. In its last National
Plan for Runway Safety (for 2002-2004, issued in 2002), FAA cited human factors
and lack of controller teamwork as significant contributing factors of runway
incursions caused by controller operational errors. The report also stated that those
types of errors could be mitigated through training and procedural interventions.
However, we found that FAA has made little progress in addressing human factors
training to help reduce the risk of runway incursions caused by controllers.

NATPRO: The National Air Traffic Professionalism Program is a human factors
initiative that we reviewed in 2003. NATPRO training is designed to sharpen and
maintain controllers’ mental skills most closely associated with visual attention and
scanning. Participants thus gain personal insight into how performance can be
influenced (e.g., by distraction, fatigue, and boredom) and how those factors increase
the opportunity for operational errors.

The program was tested in FY 2003, and FAA provided this training at its en route
centers and plans to begin using it at its large TRACON facilities in FY 2008.
However, it has not been implemented at towers where visual attention and scanning
are key factors in preventing runway incursions.




                                                                                     22
Facility managers we spoke with expressed an interest in this training, but FAA had
not established milestone dates for implementing NATPRO at air traffic control
towers at the time of our audit. Since we issued our report, FAA has provided
NATPRO cadre training to representatives from 42 facilities so they can use
NATPRO training at their facilities. Tower facilities are required to start NATPRO
training in FY 2009.

Simulators: Tower simulators also have significant potential to improve overall
facility performance by reducing runway incursions through enhanced initial and
proficiency training. They provide controllers with a virtual replica of the tower
environment, which can be used to train controllers using real-life scenarios such as
day-versus-night operations, varying weather conditions, different runway
configurations, or emergency situations (see figure 8). Simulators are being tested at
the Miami, Ontario, Phoenix, and Chicago O’Hare airports and have been used by
other facilities to mitigate safety risks of proposed and existing operations and to
improve runway safety.

Simulators can also be used to model changes in airport configurations and
procedures. For example, Boston Logan used a tower simulator to help establish
necessary safety procedures in conjunction with the use of a newly constructed
runway. Likewise, the National Aeronautics and Space Administration used a tower
simulator to study several alternatives for improving runway safety at Los Angeles
and to evaluate the effectiveness of adding a center-field taxiway between its parallel
runways.

                   Figure 8. Picture of a Tower Cab Simulator




             Source: FAA

Tower simulators have also been identified as effective tools for training new
controllers and providing proficiency training for experienced controllers. Simulator
training can help reduce the risk of runway incursions that are caused by new



                                                                                    23
controllers in training (such as the March 21, 2006, incursion at Chicago O’Hare) and
more experienced controllers.

For example, at Philadelphia, we found that 70 percent (14 of the 20) runway
incursions caused by controllers over a 4-year period occurred when an infrequently
used runway configuration was in use. We found that this particular configuration
was used only 30 percent of the time at Philadelphia. Therefore, it was difficult for
controllers to maintain their proficiency on that particular configuration. According
to Air Traffic officials, proficiency training using a simulator has a high potential for
eliminating such errors.

The need for tower simulators for controller training was originally identified in
FAA’s 2000 National Plan for Runway Safety; yet, over 6 years later, only four
towers have simulators installed. While FAA is still in the testing phase of this
initiative, it must keep it on track and install simulators in a timely manner. This is
especially important in light of the fact that FAA will be hiring over 15,000 new
controllers (many of which will be for tower facilities) to replace those expected to
leave over the next 10 years. In December, FAA entered into a contract to purchase
24 new tower simulators; deployment is expected to be complete by the end of FY
2009.

Crew Resource Management (CRM): Another tool with a high potential for
improving performance is CRM training. Crew Resource Management (CRM)
training focuses on teamwork in the tower with an emphasis on operations.
Therefore, it has the potential to reduce runway incursions through improved team
performance. This initiative was originally included in FAA’s 2000 National Plan for
Runway Safety; yet, only three facilities have completed this training through FY
2006.

At Philadelphia, which is one of the three air traffic control towers to complete this
training nationwide in FY 2006, CRM training was used as a tool to reduce runway
incursions. The CRM training at Philadelphia was site-specific and geared toward
open discussions that would improve teamwork, improve individual performance, and
manage operational errors. According to managers at Philadelphia, CRM was
extremely effective at improving overall team performance and a contributing factor
in reducing controller errors.

FAA needs to keep this valuable training on target. In FY 2007, nine additional tower
facilities have completed CRM training. FAA plans to complete CRM at
11 additional towers in FY 2008.

We are reviewing several issues concerning controller human factors issues. At the
request of Chairman Costello, we are reviewing the rate and root causes of controller
training failures (developmental and transferring controllers who fail training either at


                                                                                      24
the FAA Academy or at their assigned facility). At the request of Senator Durbin of
Illinois, we are reviewing factors that could affect controller fatigue. We are focusing
our current efforts at Chicago O’Hare Tower, Chicago TRACON, and Chicago Center
but may review other locations and FAA’s national efforts based on the results of our
work at Chicago.

That completes my statement, Mr. Chairman. I would be happy to address any
questions you or other Members of the Subcommittee may have.




                                                                                     25
EXHIBIT. PRIOR OIG REPORTS AND TESTIMONIES ON RUNWAY
SAFETY

Reports
 • “FAA’s Implementation of Runway Status Lights,” January 14, 2008, OIG Report
   Number AV-2008-021.
 • “FAA Needs To Improve ASDE-X Management Controls To Address Cost
   Growth, Schedule Delays, and Safety Risks,” October 31, 2007, OIG Report
   Number AV-2008-004.
 • “Progress Has Been Made in Reducing Runway Incursions, but Recent Incidents
   Underscore the Need for Further Proactive Efforts,” May 24, 2007,
   OIG Report Number AV-2007-050.
 • “Review of Staffing at FAA’s Combined Radar Approach Control and Tower
   With Radar Facilities,” March 16, 2007, OIG Report Number AV-2007-038.
 • “Review of Operations, Capacity, and Runway Safety Areas at Chicago Midway
   Airport,” February 15, 2007, OIG Report Number CC-2006-013.
 • “Operational Errors and Runway Incursions,” April 3, 2003, OIG Report Number
   AV-2003-040.
 • “Despite Significant Management Focus, Further Actions Are Needed To Reduce
   Runway Incursions,” June 26, 2001, OIG Report Number AV-2001-066.
 • “Actions To Reduce Operational Errors and Deviations Have Not Been Effective,”
   December 15, 2000, OIG Report Number AV-2001-011.
 • “Follow-Up Review of FAA’s Runway Safety Program,” July 21, 1999,
   OIG Report Number AV-1999-114.
 • “Runway Incursion Program,” February 9, 1998, OIG Report Number AV-1998-
   075.

Testimonies
 • “Challenges Facing the U.S. Department of Transportation,” October 18, 2007,
   OIG Report Number CC-2008-007.
 • “FAA’s FY 2008 Budget Request: Key Issues Facing the Agency,” May 10, 2007,
   OIG Report Number CC-2007-054.
 • “Top Management Challenges Facing the Department of Transportation,”
   March 6, 2007, OIG Report Number CC-2007-021.
 • “Review of Operations, Capacity, and Runway Safety Areas at Chicago Midway
   Airport,” February 15, 2007, OIG Report Number CC-2006-013.
 • “Observations on FAA’s Oversight of Aviation Safety,” September 20, 2006, OIG
   Report Number CC-2006-074.


Exhibit. Prior OIG Reports and Testimonies on Runway Safety                   26
 • “Perspectives on FAA’s FY 2007 Budget Request and the Aviation Trust Fund,”
   March 28, 2006, OIG Report Number CC-2006-027.
 • “Aviation Safety – Observations on FAA’s Oversight and Changes in the Airline
   Industry,” November 17, 2005, OIG Report Number CC-2006-003.
 • “Key Issues for the Federal Aviation Administration’s FY 2005 Budget,”
   April 22, 2004, OIG Report Number CC-2004-038.
 • “FAA’s FY 2005 Budget: Opportunities To Control Costs and Improve
   Effectiveness of Programs,” March 17, 2004, OIG Report Number, CC-2004-040.
 • “Opportunities To Control Costs and Improve the Effectiveness of Department of
   Transportation Programs,” July 9, 2003, OIG Report Number CC-2003-132.
 • “The State of the Aviation Industry and the Federal Aviation Administration,”
   April 2, 2003, OIG Report Number CC-2003-095.
 • “DOT FY’04 Budget and Management Challenges,” March 13, 2003, OIG Report
   Number CC-2003-080.
 • “The State of the Federal Aviation Administration,” February 11, 2003, OIG
   Report Number CC-2003-068.
 • “Department of Transportation Budget for Fiscal Year 2003,” February 13, 2002,
   OIG Report Number CC-2002-102.
 • “Further Actions Are Needed To Reduce Runway Incursions,” June 26, 2001, OIG
   Report Number CC-2001-224.
 • “DOT Management Challenges,” March 8, 2001, OIG Report Number CC-2001-
   112.
 • “Management Oversight Issues,” February 14, 2001, OIG Report Number CC-
   2001-089.
 • “Key Safety, Modernization, and Financial Issues Facing FAA,” March 22, 2000,
   OIG Report Number CC-2000-072.
 • “Management Oversight Issues,” March 9, 2000, OIG Report Number TW-2000-
   064.
 • “Improving Aviation Safety, Efficiency, and Security: FAA’s Fiscal Year 2001
   Request for Research, Engineering, and Development,” March 1, 2000, OIG
   Report Number AV-2000-054.
 • “FAA—Aviation Safety,” March 10, 1999, OIG Report Number AV-1999-069.
 • “DOT’s 10 Top-Priority Management Issues,” February 25, 1999, OIG Report
   Number TW-1999-031.
 • “FAA’s Runway Incursion Program,” November 13, 1997, OIG Report Number
   AV-1998-015.

The complete text of the above reports and testimonies can be found at
http://www.oig.dot.gov.

Exhibit. Prior OIG Reports and Testimonies on Runway Safety                   27
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
                    Actions Needed To Improve Runway Safety

                         Section 508 Compliant Presentation

Figure 1. Runway Incursions Fiscal Year 1999 to Fiscal Year 2007

 • In fiscal year 1999, there were 329 runway incursions.
 • In fiscal year 2000, there were 405 runway incursions.
 • In fiscal year 2001, there were 407 runway incursions.
 • In fiscal year 2002, there were 339 runway incursions.
 • In fiscal year 2003, there were 323 runway incursions.
 • In fiscal year 2004, there were 326 runway incursions.
 • In fiscal year 2005, there were 327 runway incursions.
 • In fiscal year 2006, there were 330 runway incursions.
 • In fiscal year 2007, there were 370 runway incursions.
Source: Federal Aviation Administration

Figure 2. Diagram of Entrance Lights

Diagram shows aircraft stopped at hold line by red lights. This alerts the pilot to wait
until runway is clear before entering.

Figure 3. OIG Photo of Entrance Lights at DFW

At Dallas-Forth Worth International Airport, the audit team observed illuminated
runway entrance lights signaling that an intersecting runway, Runway 18L, was not
clear for entrance due to a departing aircraft on the runway.

Figure 4. Diagram of Take-Off Hold Lights
Diagram shows take-off hold lights illuminating red to alert a pilot waiting to take off
that another aircraft or vehicle is either on or about to enter the runway in front of the
aircraft.

Figure 5. Picture of Ground Signage at Chicago O’Hare Instructing General
Aviation Pilots To Hold and Contact Ground Control Before Proceeding

Photograph shows a large sign on the ground near runway. The sign message is,
“HOLD HERE CONTACT GROUND.”
Figure 6. Picture of an Elevated Runway Guard Light at Boston Logan

Photograph shows guard light elevated from the runway.

Figure 7. History of Pilot Deviations Fiscal Year 2001 to Fiscal Year 2007

 • In fiscal year 2001, there were 233 pilot deviation runway incursions. Thirty-two
   of these were rated as Category A or B incidents.
 • In fiscal year 2002, there were 191 pilot deviation runway incursions. Twenty of
   these were rated as Category A or B incidents.
 • In fiscal year 2003, there were 174 pilot deviation runway incursions. Fourteen of
   these were rated as Category A or B incidents.
 • In fiscal year 2004, there were 173 pilot deviation runway incursions. Fourteen of
   these were rated as Category A or B incidents.
 • In fiscal year 2005, there were 169 pilot deviation runway incursions. Nine of
   these were rated as Category A or B incidents.
 • In fiscal year 2006, there were 190 pilot deviation runway incursions. Eighteen of
   these were rated as Category A or B incidents.
 • In fiscal year 2007, there were 209 pilot deviation runway incursions. Eleven of
   these were rated as Category A or B incidents.
Source: FAA data

Figure 8. Picture of a Tower Cab Simulator

Photograph shows the screens and other equipment used for tower cab simulation.

Source: FAA
